TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                          RECOVERY ACT


                   Verifying Eligibility for Certain New Tax
                 Benefits Was a Challenge for the 2010 Filing
                                     Season



                                      September 30, 2010

                              Reference Number: 2010-41-128




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           HIGHLIGHTS


VERIFYING ELIGIBILITY FOR CERTAIN                      TIGTA identified inadequate controls and
NEW TAX BENEFITS WAS A CHALLENGE                       incomplete and inaccurate programming
FOR THE 2010 FILING SEASON                             resulting in 125,762 individuals receiving nearly
                                                       $111.4 million in erroneous Recovery
                                                       Act-related tax benefits:
Highlights                                             •   10,581 individuals claiming $65.6 million in
                                                           erroneous Homebuyer Credits. IRS
Final Report issued on September 30,                       compliance efforts did not allow 2,363 of the
2010                                                       10,581 individuals to receive $11.3 million
                                                           they claimed for the Homebuyer Credit.
Highlights of Reference Number: 2010-41-128 to         •   109,665 individuals erroneously receiving
the Internal Revenue Service Commissioner for              $29.7 million in Making Work Pay and
the Wage and Investment Division.                          Government Retiree credits.
IMPACT ON TAXPAYERS                                    •   5,345 individuals erroneously claiming
One of the challenges the Internal Revenue                 $15.6 million in plug-in vehicle credits.
Service (IRS) confronts each year in processing        •   171 individuals claiming $453,220 in
tax returns is the implementation of new tax law           erroneous Nonbusiness Energy Property
changes. The passage of two significant tax laws           credits.
impacted the 2010 Filing Season and presented
                                                       TIGTA identified 2,933 individuals with more
additional challenges for the IRS. As of May 28,
                                                       than $95.8 million in Qualified Motor Vehicle Tax
2010, the IRS received more than 131.7 million
                                                       deductions on Itemized Deductions (Schedule
individual income tax returns and issued
                                                       A) that exceeded the dollar amount the IRS uses
approximately 101 million refunds totaling
                                                       to identify potentially erroneous claims. The IRS
$291.7 billion.
                                                       had not developed a process to identify these
WHY TIGTA DID THE AUDIT                                potentially erroneous claims on Schedule A.
The filing season is critical for the IRS because it   WHAT TIGTA RECOMMENDED
is during this time that most individuals file their
                                                       The Commissioner, Wage and Investment
income tax returns and contact the IRS if they
                                                       Division, should:
have questions about specific tax laws or filing
procedures. The overall objective of this review       •   Develop processes to track and account for
was to evaluate whether the IRS timely and                 Recovery Act credits claimed on plug-in
accurately processed individual paper and                  vehicle credit tax forms.
electronically filed tax returns during the            •   Verify whether 8,218 individuals identified as
2010 Filing Season.                                        erroneously claiming the First-Time
WHAT TIGTA FOUND                                           Homebuyer Credit are entitled to claim the
                                                           credit.
The IRS timely processed individual tax returns
during the 2010 Filing Season. However,                •   Ensure computer systems are programmed
implementing some new tax provisions presented             to identify individuals exceeding the
challenges for the IRS. These challenges                   maximum allowable Nonbusiness Energy
resulted in increased error inventories from               credits.
individuals incorrectly calculating the Making         •   Ensure programming is implemented to
Work Pay Credit and individuals not providing              identify and freeze refunds of individuals
required documentation when claiming the                   claiming more than a specific dollar amount
First-Time Homebuyer Credit. There were nearly             in Qualified Motor Vehicle Tax deductions
23.7 million errors on tax returns through                 on Schedule A, if the deduction is extended.
May 28, 2010, an increase of 7.1 percent in error
receipts compared to the same time last year.          In its response to the report, the IRS agreed with
                                                       each of our recommendations and plans to take
                                                       corrective actions.
                                                  DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 30, 2010


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Verifying Eligibility for Certain New
                                 Tax Benefits Was a Challenge for the 2010 Filing Season
                                 (Audit # 201040102)

 This report presents the results of our review to evaluate whether the Internal Revenue Service
 (IRS) timely and accurately processed individual paper and electronic tax returns during the
 2010 Filing Season. This review is included in our Fiscal Year 2010 Annual Audit Plan and
 addresses the major management challenge of Implementing Tax Law Changes.
 The American Recovery and Reinvestment Act of 2009 (Recovery Act)1 provides separate
 funding to the Treasury Inspector General for Tax Administration through September 30, 2013,
 to be used in oversight activities of IRS programs. This audit was conducted using Recovery Act
 funds.
 Management’s complete response to the draft report is included in Appendix IX.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations.
 Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
 Inspector General for Audit (Returns Processing and Account Services), at (202) 622-5916.




 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
                             Verifying Eligibility for Certain New Tax Benefits
                               Was a Challenge for the 2010 Filing Season




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Individual Tax Returns Were Timely Processed .......................................... Page 4
          Individuals Took Advantage of New and Expanded Credits and
          Deductions .................................................................................................... Page 7
                    Recommendation 1:........................................................ Page 9

          Implementing Recovery Act and Worker, Homeownership,
          and Business Assistance Provisions Presented Challenges .......................... Page 9
          Erroneous First-Time Homebuyer Credits Were Claimed by
          Individuals With Ineligible Home Purchase Dates ....................................... Page 12
                    Recommendations 2 and 3: .............................................. Page 14

          Incorrect Programming Resulted in the Issuance of Erroneous
          Making Work Pay and Government Retiree Credits .................................... Page 15
          Inadequate Controls Resulted in Erroneous Plug-In Vehicle Credits ........... Page 17
          Incomplete Programming Resulted in Erroneous Nonbusiness
          Energy Property Credits ................................................................................ Page 18
                    Recommendation 4:........................................................ Page 19

          Individuals Received Excessive Qualified Motor Vehicle
          Tax Deductions ............................................................................................. Page 19
                    Recommendation 5:........................................................ Page 20


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 21
          Appendix II – Major Contributors to This Report ........................................ Page 24
          Appendix III – Report Distribution List ....................................................... Page 25
                  Verifying Eligibility for Certain New Tax Benefits
                    Was a Challenge for the 2010 Filing Season




Appendix IV – Outcome Measures............................................................... Page 26
Appendix V – List of Related Treasury Inspector General for Tax
Administration Reviews Completed, Ongoing, or Planned .......................... Page 28
Appendix VI – List of Tax Forms and Schedules Processed
Through Modernized e-File .......................................................................... Page 30
Appendix VII – List of Tax Products Reviewed .......................................... Page 32
Appendix VIII – Glossary of Terms ............................................................. Page 34
Appendix IX – Management’s Response to the Draft Report ...................... Page 36
                       Verifying Eligibility for Certain New Tax Benefits
                         Was a Challenge for the 2010 Filing Season




                                    Abbreviations


e-filed; e-file(ing)         Electronically filed; electronic filing
IRS                          Internal Revenue Service
MeF                          Modernized e-File
SSN                          Social Security Number
TIGTA                        Treasury Inspector General for Tax Administration
                         Verifying Eligibility for Certain New Tax Benefits
                           Was a Challenge for the 2010 Filing Season




                                             Background

The filing season1 is critical for the Internal Revenue Service (IRS) because it is during this time
that most individuals contact the IRS if they have questions about specific tax laws or filing
procedures and file their income tax returns. As of May 28, 2010, the IRS received more than
131.7 million individual tax returns. One of the
challenges the IRS confronts each year in processing
tax returns is the implementation of new tax law               The IRS received more than
changes. Changes to the tax law have a major impact               131.7 million tax returns
on how the IRS conducts its activities, how many                    as of May 28, 2010.
resources are required, and how quickly the IRS can
meet strategic goals. Before the filing season begins,
the IRS must identify new tax law and administrative changes and, when necessary, revise
various tax forms, instructions, and/or publications. The IRS must also reprogram its computer
systems to ensure tax returns are accurately processed. Problems with tax return processing
could delay tax refunds, affect the accuracy of tax accounts, and/or generate incorrect notices.
Along with the usual required updates,2 two significant tax laws impacted the 2010 Filing
Season:
•   The American Recovery and Reinvestment Act of 2009 (Recovery Act),3 enacted on
    February 17, 2009, includes 20 individual taxpayer provisions that will cost nearly
    $252 billion. Figure 1 provides a summary of the individual taxpayer provisions included in
    this Act.




1
  See Appendix VIII for a glossary of terms.
2
  Each year, the tax products must be updated to reflect current tax rates, exemption amounts, and cost of living
adjustments as shown in Revenue Procedures.
3
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                                                                                              Page 1
                               Verifying Eligibility for Certain New Tax Benefits
                                 Was a Challenge for the 2010 Filing Season




       Figure 1: Summary of Recovery Act Tax Changes for Individual Taxpayers
                                               Cost in       Taxpayers
                                           4
     Recovery Act Tax Change                   Millions5     Impacted6                           General Purpose
 Making Work Pay Credit                          $ 116,199    116.3 million   Reduce tax burden for working Americans.
 Increase in Earned Income Tax Credit              $ 4,663     18.2 million   Raise low-income taxpayers above the poverty line.
 Increase in Refundable Portion of Child
                                                  $ 14,830     15.6 million   Reduce the financial burden of raising a family.
 Tax Credit
                        7
 Increase in Hope Credit                          $ 13,907     10.2 million   Help families pay for the costs of higher education.
 Computers Allowed As Education Expense                                       Encourage the purchase of computers for students of higher
                                                       $6            5,000
 for Section 529 Education Saving Accounts                                    learning.
                                                                              Encourage buying homes to stimulate the weak housing
 Increase in First-Time Homebuyer Credit           $ 6,638        1 million
                                                                              market.
 The First $2,400 of Unemployment
                                                   $ 4,740      7.4 million   Reduce the tax burden of unemployed workers.
 Compensation Is Nontaxable
 Additional Deduction for State Sales Tax                                     Encourage the purchase of cars, light trucks, motorcycles, and
                                                   $1,684       8.5 million
 and Excise Tax on Certain Motor Vehicles                                     motor vehicles with a cost less than $49,500.
 Alternative Minimum Tax Relief (Extended
                                                                              Protect millions of middle-income taxpayers, who would
 Nonrefundable Personal Credits and the           $69,759        26 million
                                                                              otherwise be subject to the Alternative Minimum Tax.
 Alternative Minimum Tax Exemption)
                                                                              Encourage the purchase of energy efficient property designed
 Modification of Nonbusiness Energy
                                                   $ 2,034      4.3 million   to reduce heat loss during cold months or heat gain during
 Property Credit
                                                                              warm months for use in a principal residence.
 Modification of Residential Energy                                           Encourage the purchase of renewable sources of energy for
                                                    $ 268      1.67 million
 Efficient Property Credit                                                    use in a home.
 Qualified Plug-In Electric Drive Motor
 Vehicles Credit, Certain Plug-In Electric
                                                                              Encourage the purchase of motor vehicles (or the conversion
 Vehicles Credit, Conversion Kits, and
                                                   $ 2,002           8,000    of motor vehicles to those) that operate on clean renewable
 Alternative Motor Vehicle Credit As a
                                                                              sources of energy.
 Personal Credit Against the Alternative
 Minimum Tax
 Increased Exclusion for Employer Provided                    Less than 8.4   Reduce the consumption of fossil fuels by promoting the use
                                                    $ 192
 Commuter Transit Benefits                                          million   of more environmentally friendly commuter transit options.
 Health Coverage Tax Credit                                               8   Assist certified retirees and displaced workers with health
                                                    $ 457          50,000
 (12 Sections 1899A – L)                                                      insurance costs.
 $250 Economic Recovery Payment to                                            Reduce financial burden on individuals receiving Social
                                                  $ 14,225         676,000
 Certain Individuals                                                          Security, railroad retirement, disability, or pension benefits.
 $250 Special Credit for Certain                                              Reduce tax burden on government retirees receiving a pension
                                                    $ 218          696,000
 Government Retirees                                                          but not eligible for Social Security Benefits.
   TOTAL ESTIMATED COST              $251,822
Source: The Recovery Act and Treasury Inspector General for Tax Administration (TIGTA) analysis.



 4
   The Alternative Minimum Tax relief section includes 2 provisions and the Plug-In Vehicle section includes
 4 provisions for a total of 20 provisions.
 5
   Estimated over 11 years (2009 through 2019) by the Joint Committee of Taxation, Estimated Budget Effects of the
 Revenue Provisions Contained in the Conference Agreement for H.R. 1, the “American Recovery and Reinvestment
 Tax Act of 2009” (JCX-19-09, dated February 12, 2009).
 6
   Estimated by the TIGTA based on historical statistics from Tax Year 2006 and Tax Year 2009 projections.
 7
   This is the American Opportunity Tax Credit.
 8
   This is the number of taxpayers impacted per year.
                                                                                                                                     Page 2
                           Verifying Eligibility for Certain New Tax Benefits
                             Was a Challenge for the 2010 Filing Season




•      The Worker, Homeownership, and Business Assistance Act of 20099 enacted on
       November 6, 2009, to help create jobs by providing tax cuts for homebuyers and businesses,
       while providing much-needed support for workers who are still struggling to find jobs.
During the 2010 Filing Season, the IRS processed individual income tax returns in four Wage
and Investment Division Submission Processing sites located throughout the country.10 All of
                                     the four sites processed paper individual income tax
                                     returns, and all but the Atlanta, Georgia, Submission
    The IRS processed individual     Processing Site also processed electronically filed (e-filed)
      income tax returns in four     individual income tax returns.
      Wage and Investment Division
      Submission Processing sites.    Recovery Act activities require a high level of scrutiny,
                                      and taxpayer dollars spent on economic recovery must be
                                      subject to unprecedented levels of transparency and
accountability. Federal agencies are required to ensure Recovery Act funds are used for
authorized purposes and appropriate measures are taken to prevent fraud, waste, and abuse. As
such, the Treasury Inspector General for Tax Administration is required to monitor the IRS
implementation of Recovery Act provisions, and this audit was conducted to meet those
requirements.
This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia; the Submission Processing function offices in Lanham, Maryland, and
Cincinnati, Ohio; and the Fresno, California; Kansas City, Missouri; and Austin, Texas,
Submission Processing Sites during the period of October 2009 through July 2010. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




9
    Pub. L. No. 111-92, 123 Stat. 2984 (2009).
10
     Submission Processing Sites in Fresno, California; Atlanta, Georgia; Kansas City, Missouri; and Austin, Texas.
                                                                                                              Page 3
                            Verifying Eligibility for Certain New Tax Benefits
                              Was a Challenge for the 2010 Filing Season




                                         Results of Review

Individual Tax Returns Were Timely Processed
The IRS timely processed individual income tax returns during the 2010 Filing Season.
Processing of tax returns was completed on schedule and refunds were issued within the required
45 calendar days of the April 15, 2010, due date.11 Of the 131.7 million tax returns received by
the IRS as of May 28, 2010, the IRS received 94.5 million (72 percent) as e-filed, which
represents another record year for e-filing and exceeded
IRS estimates. The increase resulted primarily from
taxpayers filing online from home computers (up              E-filing of individual tax returns
7.7 percent).12 However, use of the Free File Program          hit another record high this
continues to decrease. Individuals using the Free File         year: 94.5 million e-filed tax
                                                                 returns were received by
Program decreased by 5.7 percent this filing season
                                                                the IRS as of May 28, 2010.
when compared to the last filing season. The IRS also
saw an 11.1 percent decrease in paper-filed tax returns
compared with the same time last year. As of
May 28, 2010, the IRS had received more than 37.2 million paper-filed tax returns.
In addition, as of May 28, 2010, the IRS issued approximately 101 million tax refunds totaling
$291.7 billion. Of the 101 million tax refunds issued, direct deposits increased by 1.4 percent to
almost 72 million. Figure 2 presents a summary of tax return filing statistics.




11
     Internal Revenue Code Section 6611(e) (2002).
12
     This percentage includes an 8.2 percent increase in Fillable Forms.
                                                                                            Page 4
                          Verifying Eligibility for Certain New Tax Benefits
                            Was a Challenge for the 2010 Filing Season




              Figure 2: Comparative Filing Season Statistics As of May 28th
                                                                                                  Percentage
 Cumulative Filing Season Data                                 2009 Actual       2010 Actual
                                                                                                   Change
 Individual Income Tax Returns
 Total Tax Returns Received (in thousands)                      133,635          131,712            -1.4%
     Paper Tax Returns Received (in thousands)                   41,892           37,247            -11.1%
     E-filed Tax Returns Received (in thousands)                 91,743           94,464             3.0%
       Practitioner Prepared                                     60,221           60,502             0.5%
       Home Computer                                             31,522           33,962             7.7%
       Free File (also included in Home Computer total)           2,944            2,777            -5.7%
       Fillable Forms (also included in Home Computer total)       264               286             8.2%
 Refunds
  Total Number Issued (in thousands)                            104,458          101,230            -3.1%
  Total $ (in millions)                                        $279,280          $291,695            4.5%
  Average $                                                      $2,674           $2,882             7.8%
  Total Number of Direct Deposits (in thousands)                 70,907           71,900             1.4%
  Total Direct Deposit $ (in millions)                         $209,164        $225,410              7.8%
Source: IRS 2010 Weekly Filing Season Reports. Totals and percentages may not compute to those presented due to
rounding.

 E-filing continues to increase but Free Filing continues to decrease
 The IRS continues to experience steady growth in e-filed tax returns. This year marks the
 20th anniversary of the IRS’ e-filing Program. Over 20 years, nearly 800 million tax returns have
 been e-filed. This year, the IRS began receiving e-filed tax returns on January 15, 2010. As of
 May 28, 2010, overall e-file volumes have increased 3 percent over the same period last filing
 season. This includes an increase of 7.7 percent in tax returns from taxpayers who e-filed from
 their home computers. The percentage of e-filed tax returns has increased to 72 percent of the
 total individual income tax returns received.
 However, the number of individuals using the Free File Program decreased by 5.7 percent from
 this time in 2009. The traditional IRS Free File Program is a free Federal online tax preparation
 and e-filing Program for eligible taxpayers developed through a partnership between the IRS and
 the Free File Alliance LLC (group of private-sector tax preparation companies). The Program
 enables eligible individuals to use commercial tax software for free.
 In addition, for the second year, the IRS and its partners offered Free File Fillable Tax Forms,
 which opens up the Free File Program to nearly everyone, with no income limitations. Fillable
                                                                                                       Page 5
                        Verifying Eligibility for Certain New Tax Benefits
                          Was a Challenge for the 2010 Filing Season




Tax Forms allow individuals to fill out and e-file their tax forms at no cost. The forms are
available through the Free File Program link on IRS.gov (the public IRS Internet web site).
Individuals enter their tax data, perform basic math calculations, sign their tax returns
electronically, print their tax returns for recordkeeping, and e-file their tax returns. The use of
Fillable Forms totaled 286,000 an increase of 8.2 percent from 2009.

The IRS expanded its Modernized e-File (MeF) system to include individual tax
returns
The IRS has used the MeF system to process business tax returns for several years. For Filing
Season 2010, the IRS implemented the first phase of the MeF system to process individual tax
returns. The MeF system is replacing the current IRS e-filing system (referred to as Legacy
e-File) with a modernized, Internet-based e-file platform. When completed, the MeF system will
provide a single method for filing all business and individual tax returns, forms, and schedules
via the Internet. The MeF system provides real-time processing of tax returns and extensions
that will improve error detection, standardize business rules, and expedite acknowledgments.
                                        The MeF system also allows for attachments in portable
                                        document format to accommodate late legislation and
     The IRS implemented its first      form changes.
        phase of MeF to process
      individual tax returns with a   This first phase of the MeF system for individual income
       total of 694,071 tax returns   tax returns includes the U.S. Individual Income Tax
         processed through the        Return (Form 1040), Application for Automatic Extension
     MeF system as of May 28, 2010.   of Time To File U.S. Individual Income Tax Return
                                      (Form 4868), and 21 forms and schedules related to the
                                      Form 1040 for Tax Year 2009.13 The IRS began accepting
the Form 1040, Form 4868, and related forms and schedules through the MeF system for
processing on February 17, 2010. The IRS estimates approximately 72 million of the individual
income tax returns filed during the 2010 Filing Season would qualify for the MeF system. As of
May 28, 2010, a total of 694,071 individual tax returns have been processed by the MeF system.
We completed a separate review to evaluate the first phase of the IRS’ processing of individual
tax returns through the MeF system.14 The overall objective of the review was to determine
whether e-filed individual income tax returns transmitted through the MeF system were
processed timely and accurately in a manner consistent with those tax returns processed in the
Legacy e-File system. As such, we are not including specific recommendations in this audit report.




13
  See Appendix VI for a list of the specific forms and schedules that will be processed through the MeF system.
14
  System Errors and Lower Than Expected Tax Return Volumes Affected the Implementation of the Modernized
e-File System for Individual Tax Return Processing (Reference Number 2010-40-111, dated September 8, 2010).
                                                                                                          Page 6
                      Verifying Eligibility for Certain New Tax Benefits
                        Was a Challenge for the 2010 Filing Season




Taxpayers elected to use the new savings bond option and have increased their
use of the split refund option
On September 5, 2009, President Obama announced a new initiative to make it easier for more
than 100 million families to save a portion or all of their tax refunds. Beginning in 2010,
individuals had the ability to purchase United States Series I Savings Bonds by using Direct
Deposit of Refund to More Than One Account (Form 8888) or by electing on their returns to
convert their entire refund into a savings bond. As of May 28, 2010, 24,636 individuals chose to
use $12.2 million of their tax refunds to purchase savings bonds and 100 individuals chose to
convert their entire tax refunds of $187,880 into savings bonds.
In addition, individuals can still elect to have their Federal income tax refunds split and
electronically deposited in up to three accounts (e.g., checking, savings, or Individual Retirement
Arrangement) and may have up to three different United States financial institutions, including
banks, brokerage firms, or credit unions. Form 8888 must also be prepared for this option. As of
May 28, 2010, 567,255 individuals chose to split their tax refunds of $2.5 billion between
2 or 3 different accounts. The number of individuals using the split tax refund option increased
49 percent over the same time period in 2009, and the total amount of tax refunds increased by
59 percent.

Individuals Took Advantage of New and Expanded Credits and
Deductions
Both the Recovery Act and the Worker, Homeownership, and Business Assistance Act
legislation contain provisions to assist individual taxpayers:
• The Recovery Act provisions provide tax relief to working or retired Americans and their
  families including refundable tax credits, a sales tax deduction on motor vehicles, Alternative
  Minimum Tax relief for middle-income taxpayers, a reduction in taxable unemployment
  compensation, a payment for Social Security recipients, a credit for Government retirees, tax
  credits that promote investing in renewable sources of energy, and changes to the Health
  Coverage Tax Credit.
• The Worker, Homeownership, and Business Assistance Act of 2009 provisions help create
  jobs by providing tax cuts for homebuyers and businesses, while providing much-needed
  support for workers who are still struggling to find jobs. The legislation also extends and
  expands the First-Time Homebuyer Credit (Homebuyer Credit) along with adding anti-fraud
  measures. The credit of $8,000 is extended for homes purchased or under contract by
  April 30, 2010. In addition, a smaller credit of up to $6,500 is available to taxpayers who have
  lived in their homes for at least 5 years and wish to purchase a new home. The new law
  extends a similar credit until May 2011 for members of the uniformed services whose duty
  takes them overseas.

                                                                                            Page 7
                         Verifying Eligibility for Certain New Tax Benefits
                           Was a Challenge for the 2010 Filing Season




Figure 3 provides the number of individuals and dollar amounts claimed for some of the new
and/or expanded credits/deductions as of May 28, 2010.
     Figure 3: Individuals Claiming New and/or Expanded Tax Credits/Deductions
                                                                         Claims for the Credits
                                                                         Through May 28, 2010
                     Recovery Act Credit                      Number of Taxpayers            Dollar Amount
      Making Work Pay Credit and Special Credit for                 89.8 million              $53.3 billion
      Government Retirees
      American Opportunity Tax Credit                                8.3 million               $7.1 billion
                                                                                  15
      First-Time Homebuyer Credit                                  1.05 million                $7.4 billion
                                                                                16
      Additional Deduction for State Sales Tax and                  4.1 million                $8.4 billion
      Excise Tax on the Purchase of a Qualified Motor
      Vehicle
      Extension and Modification of Credit for                       6.2 million               $5.2 billion
      Nonbusiness Energy Property and Modification
      of Credit for Residential Energy Efficient
      Property
      Plug-In Vehicle Credits                                          16,874                $75.3 million*
      Source: TIGTA analysis of 2010 Filing Season tax return volumes through May 28, 2010.
      *These amounts represent only those that were claimed on an e-filed tax return. Claims for these credits
      cannot be identified on paper tax returns.

However, our testing identified that the IRS is unable to completely track and account for some
new credits claimed for individual tax provisions because processes have not been implemented
to capture information from the following tax forms included with paper-filed tax returns:
•    Electric plug-in vehicle credits on Qualified Plug-in Electric and Electric Vehicle Credit
     (Form 8834).
•    Alternative Motor Vehicle Credit (Form 8910).
•    Qualified Plug-in Electric Drive Motor Vehicle Credit (Form 8936).
As such, the IRS is not able to identify the number of individuals claiming the credits and the
amount of credits claimed. We alerted IRS management of their inability to track and account
for these Recovery Act funds. We recommended that the IRS implement Special Processing

15
   Tax returns claiming the First-Time Homebuyer Credit between February 16, 2010, and May 28, 2010.
16
   The Additional Deduction for State Sales Tax and Excise Tax on the Purchase of a Qualified Motor Vehicle can
be claimed on either the Itemized Deductions (Form 1040, Schedule A) or the Standard Deduction for Certain
Filers (Form 1040, Schedule L). The amounts identified on Schedule L are IRS computed amounts based on
transcribed data. The amounts identified on Schedule A were the amounts claimed by the taxpayer.
                                                                                                              Page 8
                     Verifying Eligibility for Certain New Tax Benefits
                       Was a Challenge for the 2010 Filing Season




Code programming to enable the IRS to track and account for these credits filed on paper tax
returns. Special Processing Codes are entered on tax returns with certain conditions to alert the
computer to a special condition or computation.
The IRS agreed that it needs the ability to provide transparent reporting of Recovery Act-related
credits and responded that existing and newly created processes will allow it to report on the use
of these credits. Programming was to be implemented to add Special Processing Codes to enable
the IRS to track and account for funds allocated as part of tax provisions included in the
Recovery Act for individuals claiming Electric Vehicle Credits on paper-filed tax returns. The
implementation date for the programming was originally February 18, 2010, but was delayed to
March 2, 2010. The IRS subsequently informed us that they decided to delay identifying and
tracking these credits until the beginning of the 2011 Filing Season.

Recommendation
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Develop processes to track and account for Recovery Act credits
claimed on Forms 8834, 8910, and 8936.
       Management’s Response: IRS management agreed with this recommendation.
       They submitted a Unified Work Request on August 3, 2010, to create Error Resolution
       System input-only fields that will enable the IRS to capture the data needed to track and
       account for Recovery Act credits claimed on Forms 8834, 8910, and 8936. Since the
       requested action will be subject to funding and resource prioritization by Modernization
       and Information Technology Services, submission of the Unified Work Request will
       complete the corrective action.

Implementing Recovery Act and Worker, Homeownership, and
Business Assistance Provisions Presented Challenges
The IRS recognized the difficulty taxpayers had in claiming new credits and/or deductions. In an
attempt to reduce this difficulty, the IRS created new forms, schedules, and/or instructions.
Implementing legislation for the 2010 Filing Season required the IRS to update many tax
products and perform extensive programming in an effort to ensure tax returns would be
processed accurately. We identified 71 tax products (33 tax forms, 12 instructions, and
26 publications) requiring updates due to legislation and determined 59 of them had been
updated clearly and accurately. Of the remaining 12 tax products, 9 were incorrect, 2 had




                                                                                            Page 9
                         Verifying Eligibility for Certain New Tax Benefits
                           Was a Challenge for the 2010 Filing Season




inconsistencies identified after we had notified the IRS,17 and 1 was unavailable for review
during the filing season.18 See Appendix VII for more information about the specific issues we
raised relative to tax products and the IRS actions taken as of May 28, 2010, to address these
concerns.
Furthermore, of the significant new or expanded credits/deductions we reviewed, the IRS
correctly implemented programming/processes to accurately process tax returns with the
following credits:
•    Temporary increase in the Earned Income Tax Credit – The Earned Income Tax Credit
     percentage for families with 3 or more qualifying children was correctly increased to
     45 percent of earned income. In addition, the increased threshold phase-out amounts were
     correctly implemented.
•    Temporary increase in the refundable portion of the Child Tax Credit – The formula for
     computing the refundable child credit was correctly changed. The formula was modified to
     apply to 15 percent of earned income in excess of $3,000 instead of the previous $8,500
     earned income amount.
•    The American Opportunity Tax Credit – Controls were correctly implemented to ensure:
     o The $2,500 maximum credit per student was not exceeded.
     o The $1,000 maximum refundable credit per student was not exceeded.
     o The credit was properly reduced when the Modified Adjusted Gross Income was between
       $80,000 and $90,000 ($160,000 and $180,000 for married filing jointly).
     o The credit was properly denied when the Modified Adjusted Gross Income exceeded
       $90,000 ($180,000 for married filing jointly).
•    Clarification of the Uniform Definition of a Child in relation to returns claiming the Child
     Tax Credit, Additional Child Tax Credit, or Earned Income Tax Credit – Controls were
     implemented to ensure a child must generally be younger than the person claiming the child
     and the Child Tax Credit may be claimed only for a child for whom an exemption is claimed.
However, some new tax provisions presented challenges for the IRS. Problems implementing
these provisions resulted in increased error inventories from individuals incorrectly calculating
the Making Work Pay Credit and individuals not providing required documentation when
claiming the Homebuyer Credit. Prior to the start of the filing season, the IRS recognized the
difficulty individuals would have in calculating the Making Work Pay Credit and complying

17
   On November 17, 2009, we notified the IRS of our concerns regarding the nine tax products that contained
inconsistencies, were incomplete, and/or were inaccurate. These two tax products were identified subsequent to this
notification.
18
   This tax product subsequently became available, was reviewed, and was found to have been correctly updated.
                                                                                                          Page 10
                     Verifying Eligibility for Certain New Tax Benefits
                       Was a Challenge for the 2010 Filing Season




with the Homebuyer Credit documentation requirements. In an attempt to alleviate confusion
and errors, the IRS developed and executed an aggressive outreach campaign. For example:
•   The IRS sent reminders to tax professionals that the amount on Line 10 of the Making Work
    Pay and Government Retiree Credits (Schedule M), which asks if the individual or their
    spouse (if filing jointly) received an Economic Recovery Payment in 2009, must match the
    Economic Recovery Payment received by the taxpayer in 2009. If individuals cannot recall
    if they received this payment, they were advised to contact the respective agency to confirm
    whether they received the payment before resubmitting their tax returns claiming the Making
    Work Pay and Government Retiree Credits. However, to date, more than 1 million e-filed
    tax returns have been rejected and this issue is included in the top 5 errors on paper tax
    returns.
•   The IRS provided a lookup tool, “Did I Receive an Economic Recovery Payment?” which
    gives individuals an easy way to determine if they received the one-time Economic Recovery
    Payment. The Internet application became available March 17, 2010, on IRS.gov. In
    addition, individuals can call a toll-free telephone number to access the telephone
    application.
•   The IRS conducted an extensive communications campaign focusing on key Recovery Act
    provisions, including more than three dozen news releases and fact sheets and two dozen
    plain language tax tips for the public and tax professionals covering the Homebuyer Credit,
    Making Work Pay Credit, Energy, and Education credits.
•   The IRS created 10 Recovery Act videos on YouTube in English, Spanish, and American
    Sign Language along with podcasts on IRS.gov and iTunes. Sixteen radio Public Service
    Announcements were produced in English and six in Spanish. Recovery Act flyers and
    posters were created in six languages (English, Spanish, Chinese, Korean, Russian and
    Vietnamese) and some publications were provided in multiple languages that covered the
    Recovery Act in general as well as the Homebuyer Credit and Making Work Pay Credit.
In addition, the IRS developed computer programming to check each tax return and identify
individuals that qualified for the Making Work Pay Credit but did not claim the credit on their
tax returns. Through May 28, 2010, the IRS provided Making Work Pay credits to
1,654,801 individuals who were entitled to the credit but had not claimed the credit on their tax
returns.
Despite these efforts, there were nearly 23.7 million errors on tax returns through
May 28, 2010, an increase of 7.1 percent in error receipts compared to the same time last year.
The increase in error inventories resulted primarily from individuals incorrectly calculating the
Making Work Pay Credit and/or not providing required documentation when claiming the
Homebuyer Credit. In addition to the increased error inventories, our review identified
inadequate controls and incomplete and inaccurate programming resulting in 125,762 individuals

                                                                                           Page 11
                          Verifying Eligibility for Certain New Tax Benefits
                            Was a Challenge for the 2010 Filing Season




receiving nearly $111.4 million in erroneous Recovery Act-related tax benefits. Figure 4
provides a summary of erroneous tax benefits identified during the filing season.
          Figure 4: Summary of Erroneous and/or Excess Tax Benefits Identified
                                                           Erroneous and/or Excess Tax Benefits Claimed
                                                                      Through May 28, 2010

                   Recovery Act Credit                        Number of Taxpayers              Dollar Amount
                                                                                 19
     First-Time Homebuyer Credit                                        10,581                  $65.6 million
     Making Work Pay Credit and Special Credit for                     109,665                  $29.7 million
     Government Retirees
     Plug-In Vehicle Credits                                             5,345*                 $15.6 million
     Extension and Modification of Credit for                              171*                   $453,220
     Nonbusiness Energy Property and Modification of
     Credit for Residential Energy Efficient Property

Source: TIGTA analysis of 2010 Filing Season tax return volumes through May 28, 2010.
*These amounts represent only those that were claimed on an e-filed tax return. Claims for these credits cannot be
identified on paper tax returns.

Erroneous First-Time Homebuyer Credits Were Claimed by
Individuals With Ineligible Home Purchase Dates
As of May 28, 2010, we identified 10,581 individuals claiming $65.6 million in Homebuyer
Credits which appear to be erroneous:
•      Ineligible past purchase date: 8,734 individuals claimed $52.6 million in erroneous
       Homebuyer Credits as long-time residents with a purchase date prior to November 6, 2009.
       Of these 8,734 individuals, subsequent IRS compliance efforts did not allow
       2,180 individuals to receive $10.4 million they claimed for the Homebuyer Credit. To
       qualify for this Credit, the law specifies that these individuals must complete the purchase of
       their new home after November 6, 2009. The IRS did not establish controls to identify
       individuals who erroneously claim the Homebuyer Credit as long-time residents with
       incorrect purchase dates.
       On April 5, 2010, we alerted the IRS to this condition. We recommended the IRS
       immediately revise its tax return processing programs to identify these tax returns. IRS
       management agreed with our recommendation and issued an alert to its examiners on
       April 9, 2010, instructing them to disallow the Homebuyer Credit for individuals claiming

19
  This includes only originally filed Tax Year 2009 tax returns claiming the First-Time Homebuyer Credit between
February 16, 2010, and May 28, 2010.
                                                                                                          Page 12
                            Verifying Eligibility for Certain New Tax Benefits
                              Was a Challenge for the 2010 Filing Season




       the Credit as long-time residents for homes purchased before November 7, 2009. Although
       this alert was issued, we continue to identify individuals allowed to erroneously claim the
       Homebuyer Credit as a long-time resident with home purchase dates prior to
       November 6, 2009.
•      Ineligible future purchase date: 1,847 individuals claimed $13 million in erroneous
       Homebuyer Credits for a home with a purchase date subsequent to the filing date of the tax
       return. Of these 1,847 individuals, subsequent IRS compliance efforts did not allow
       183 individuals to receive $965,656 they claimed for the Homebuyer Credit. To qualify for
       the Homebuyer Credit, individuals must complete the purchase of their new home before
       claiming the credit. The IRS did not establish controls to identify individuals who claimed
       the Homebuyer Credit for future home purchase dates.

Processes are ensuring individuals provide required documentation and meet the
minimum age requirement in support of Homebuyer Credit claims
Previous TIGTA reviews20 identified:
•      The IRS did not request that individuals attach some form of documentation to tax returns to
       verify eligibility before the Homebuyer Credit was allowed. In a memorandum dated
       November 25, 2008, we recommended that the IRS ensure information on each line of the
       First-Time Homebuyer Credit (Form 5405) be transcribed for paper tax returns and that the
       information from Form 5405 be used to validate claims for the First-Time Homebuyer
       Credit. We also recommended the IRS require individuals to attach documentation to
       substantiate a home purchase and verify eligibility for the Credit. The IRS disagreed with
       both recommendations.
•      582 individuals under 18 years of age claimed almost $4 million in First-Time Homebuyer
       Credits. The youngest individuals were 4 years old. Contract law generally exempts
       children under the age of 18 from being bound by the terms of a contract. Therefore, it is
       unlikely that these individuals would have entered into an arms-length transaction for the
       purchase of a home.
Subsequent to our raising the above concerns, the Worker, Homeownership, and Business
Assistance Act included important measures to combat tax fraud and protect responsible
homebuyers, including setting a minimum age for home purchases and requiring documentary
proof of the purchase in order to receive the credit. Our review of more than 1 million tax
returns with claims for the Homebuyer Credit as of May 28, 2010, identified no individuals
under the age of 18 erroneously received the Homebuyer Credit. In addition, we selected a
sample of 69 tax returns for individuals claiming the Homebuyer Credit in which required


20
     See Appendix V for a list of completed, ongoing, or planned audits relating to areas reported on in this report.
                                                                                                                Page 13
                     Verifying Eligibility for Certain New Tax Benefits
                       Was a Challenge for the 2010 Filing Season




documentation was not provided by the individual to support their claim. Of the 69 returns
sampled:
•   65 (94.2 percent) returns – the IRS had corresponded with the individual to request required
    documentation. IRS management decided to suspend processing of tax returns submitted
    without supporting statements and to correspond with these individuals before denying the
    credit with its math error authority. Although this decision slowed the processing of some
    tax returns, it benefited individuals by providing them with the opportunity to submit the
    required documentation to receive their Homebuyer Credit.
•   ********************1********************************
•   *********************************1***************************************
    *************************************************************************
    *************************************************************************
    *****

Recommendations
The Commissioner, Wage and Investment Division, should
Recommendation 2: Verify whether the 6,554 individuals who TIGTA identified as claiming
the Homebuyer Credit as long-time residents for homes purchased prior to November 6, 2009,
are entitled to claim the Credit. In addition, develop a process to identify other individuals
allowed to erroneously claim the Homebuyer Credit as long-time residents subsequent to the end
of our testing on May 28, 2010.
       Management’s Response: IRS management agreed with this recommendation.
       The IRS will use third-party public property records to verify that the 6,554 individuals
       the TIGTA identified as claiming the Homebuyer Credit as long-time residents for homes
       purchased prior to November 6, 2009, are entitled to claim the Credit. The IRS will use
       this same process to verify the actual purchase date for other individuals who erroneously
       claimed the Homebuyer Credit as long-time residents.
Recommendation 3: Verify whether the 1,664 individuals who TIGTA identified as claiming
the Homebuyer Credit for future purchase dates are entitled to claim the Credit. In addition,
develop a process to identify other individuals allowed to erroneously claim the Homebuyer
Credit with future purchase dates subsequent to the end of our testing on May 28, 2010.
       Management’s Response: IRS management agreed with this recommendation.
       The IRS will use third-party public property records to verify that the 1,664 individuals
       TIGTA identified as claiming the Homebuyer Credit for future purchase dates are entitled
       to claim the Credit. The IRS will use this same process to verify the actual purchase date


                                                                                         Page 14
                         Verifying Eligibility for Certain New Tax Benefits
                           Was a Challenge for the 2010 Filing Season




        of other individuals who erroneously claimed the Homebuyer Credit for future purchase
        dates.

Incorrect Programming Resulted in the Issuance of Erroneous Making
Work Pay and Government Retiree Credits
As of May 28, 2010, we identified that the IRS erroneously issued Making Work Pay and
Government Retiree Credits to 109,665 individuals totaling $29.7 million. The IRS developed
programming to systemically compute the Making Work Pay and Government Retiree Credits on
tax returns on which the individual appears eligible for the credits. However, errors in this
programming resulted in the issuance of the erroneous credits.

Individuals without a valid Social Security Number erroneously received the
Making Work Pay Credit
Prior to the IRS correcting its computer programming, we identified 38,446 individuals (as of
February 26, 2010) that erroneously received the Making Work Pay Credit. These individuals
did not have a valid Social Security Number (SSN) and therefore did not qualify for the credit.
Tax examiners successfully denied the Credit for 405,065 (91 percent) of the tax returns filed
without a valid SSN. However, for the remaining 38,446 (9 percent), tax examiners failed to
correctly disallow the credit, which resulted in individuals incorrectly receiving $15.2 million in
erroneous Making Work Pay Credits.
It should be noted that 36,026 of these individuals did not claim the Making Work Pay Credit.
For these individuals, IRS programs incorrectly computed the credit without taking into account
that the individual did not have the required valid SSN. The IRS computes the amount of the
Making Work Pay Credit for every Tax Year 2009 tax return processed. Tax returns for which
the IRS’ computation of the Making Work Pay Credit differs from the taxpayer’s are sent to the
Error Resolution function for tax examiner review. For the tax returns with a discrepancy, tax
examiners are required to review the tax returns and disallow the credit for those individuals who
file without a valid SSN. The Recovery Act provides that in order to be eligible for the Making
Work Pay Credit an individual must provide a valid SSN. In the case of tax returns filed as
married filing jointly, at least one of the individuals filing the tax return must provide an SSN.21
On February 5, 2010, we alerted the IRS of the fact that individuals without a valid SSN were
erroneously receiving the Making Work Pay Credit. We recommended that the IRS immediately
revise its tax return processing programs to not compute an amount for the Making Work Pay
Credit for individuals who do not have a valid SSN. IRS management responded that the issue
could be resolved through a programming change and the change was scheduled to be

21
   For purposes of this section of the Recovery Act, the SSN does not include a Taxpayer Identification Number
issued by the IRS.
                                                                                                         Page 15
                         Verifying Eligibility for Certain New Tax Benefits
                           Was a Challenge for the 2010 Filing Season




implemented on February 25, 2010. We determined this programming change was made and
subsequent to the change we no longer identified erroneous Making Work Pay Credits to
individuals without a valid SSN.

Individuals receiving a Government Retiree Credit are erroneously receiving
excess credits
As of May 28, 2010, we identified 71,219 individuals who erroneously received $14.5 million in
excess Making Work Pay and Government Retiree Credits because IRS computer programs were
incorrectly computing the Making Work Pay and Government Retiree Credits. Programming
was not correctly computing the credit for individuals who indicated eligibility to receive the
$250 Government Retiree Credit and who also received a $250 Economic Recovery Payment.
The Recovery Act provided for a special credit for certain Government retirees. If an individual
received a pension or annuity from a Government entity for work not covered by Social Security,
he or she is entitled to the $250 Government Retiree Credit. If the individual also had income
from wages or other earned income, he or she may also be entitled to the Making Work Pay
Credit. In both situations, the Making Work Pay Credit is reduced if an individual received the
Economic Recovery Payment.22 These credits are calculated and reported using the Schedule M.
The IRS tax return processing system computes the Making Work Pay and Government Retiree
Credits on tax returns using formulas based on several factors.23 Tax returns for which the IRS’
computation for these credits differs from the taxpayers are sent to the Error Resolution function
for tax examiner review.
On February 19, 2010, we alerted the IRS of this condition and recommended that the IRS
immediately revise its tax return processing programs to correctly compute the Making Work
Pay and Government Retiree Credits on tax returns with a Special Processing Code “M.”
Special Processing Code “M” is entered on tax returns when Line 11 on Schedule M has either a
dollar amount or the “Yes” box is checked indicating the taxpayer received a pension or annuity
from a Government entity for work not covered by Social Security. IRS management responded
that manual procedures for tax examiners to correct this condition were issued. In addition, a
correction to the programming was requested and the programming was to be completed by
April 1, 2010. However, we continued to identify erroneous claims after the planned
programming correction and determined the programming change was not implemented until
April 23, 2010.



22
   Economic Recovery Payments were sent to taxpayers that received Social Security benefits, Supplemental
Security Income benefits, Railroad Retirement benefits, or Veterans Affairs disability compensation or pension
benefits.
23
   Factors include wages, self-employment income, Adjusted Gross Income, Economic Recovery Payment
indicators, and Special Processing Codes.
                                                                                                          Page 16
                     Verifying Eligibility for Certain New Tax Benefits
                       Was a Challenge for the 2010 Filing Season




Inadequate Controls Resulted in Erroneous Plug-In Vehicle Credits
As of May 28, 2010, we identified 5,345 individuals erroneously claiming $15.6 million in
plug-in vehicle credits:
•   1,180 individuals claiming $2.1 million in erroneous credits for vehicles with vehicle years
    that did not qualify. These individuals claimed electric plug-in vehicle credits on Form 8834
    and Form 8936 and reported a vehicle with a year earlier than 2009. The law requires that
    vehicles must be new to qualify for these credits.
•   257 individuals claiming $559,942 in erroneous credits for vehicles that did not have
    qualifying in-service dates. These individuals claimed electric plug-in vehicle credits on
    Form 8834 and Form 8910 and reported vehicles with an in-service date earlier than
    February 17, 2009. The law requires vehicles have in-service dates after February 17, 2009.
    Individuals also claimed credits on Form 8936 and reported vehicles with in-service dates
    earlier than January 1, 2009. The law requires vehicles have in-service dates after
    December 31, 2008.
•   3,908 individuals claiming $13 million in erroneous credits that do not qualify based on the
    make of the vehicle. The law specifies that the make of the vehicles must qualify. These
    individuals claimed electric plug-in vehicle credits on Form 8834 and Form 8936 and
    reported vehicle makes that were not included on the approved list of vehicles for the
    Form 8834 and Form 8936 tax credits. The IRS provides a list of vehicle manufacturers,
    makes, and models that qualify for the tax credits claimed on Form 8834 and Form 8936 on
    IRS.gov. The Form 8910 does not require a specific vehicle manufacturer, make, or model
    as it is a conversion.
We alerted IRS management to the above conditions on February 10, 2010. Based on our alert,
the IRS implemented five new error reject codes on March 29, 2010, to reject e-filed tax returns
with a vehicle year and/or in-service date that do not meet the tax provision requirements for the
plug-in vehicle credits. In addition, instructions were issued to tax examiners to enter a
Computer Condition Code on paper tax returns with disqualifying in-service dates and the credit
will be denied.
However, the IRS did not agree to verify the make of the vehicle during tax return processing
because this would require IRS employees to review the forms for several hundred different
types of qualifying vehicles. It would also have a significant impact on the number of tax returns
that could be reviewed per hour. The IRS also believes this issue is best handled after the tax
return has been processed, and a Compliance Strategy being developed for Recovery Act
provisions will include tests in Fiscal Year 2011 for this issue.




                                                                                           Page 17
                           Verifying Eligibility for Certain New Tax Benefits
                             Was a Challenge for the 2010 Filing Season




We are performing a separate review24 to further assess the IRS’ ability to identify and prevent
erroneous Plug-in and Alternative Motor Vehicle Credits. As such, we are not including specific
recommendations or outcome measures in this report.

Incomplete Programming Resulted in Erroneous Nonbusiness Energy
Property Credits
As of May 28, 2010, we identified 171 individuals claiming $453,220 in erroneous nonbusiness
energy property credits. Controls allowed these individuals to claim a credit that exceeded the
maximum allowable amount for the Nonbusiness Energy Property Credit based on their filing
status and multiple residence indicators.
•      For all filing statuses reporting only one primary residence, the maximum allowable credit is
       $1,500.
•      For married individuals filing jointly reporting more than one primary residence, the
       maximum allowable credit is $3,000.
Our review identified that the IRS planned to implement an e-file reject code to prevent claims
for more than the allowable maximum credit amounts of $1,500 for single filers or $3,000 for
married filing jointly filers. However, the programming was not implemented. We notified the
IRS in an email alert on April 15, 2010, that as of April 2, 2010, we had identified
123 individuals that erroneously received $315,055 in Nonbusiness Energy Property Credits.
We recommended that the IRS implement the e-file reject code to prevent claims for more than
the allowable maximum credit amounts. The IRS responded that programming had been
requested on April 23, 2010, to implement a new error reject code to prevent claims for more
than the allowable maximum credit amounts. The initial programming implementation date was
scheduled for May 14, 2010, but was extended to June 24, 2010.
We were not able to analyze paper tax returns to identify erroneous claims. Although the IRS
can track and account for the credits on the Residential Energy Credits (Form 5695) claimed on
e-filed tax returns, accurate tracking and accounting for these credits on paper-filed tax returns is
more difficult. On paper-filed tax returns, these credits are included on a line on the Form 1040
with two additional tax credits. The IRS has programming in place to identify tax returns with
any amount claimed on this line. Tax examiners then review the returns and move the amounts
into appropriate fields. The Form 5695 has two credits, the Nonbusiness Energy Property Credit
and the Residential Energy Efficient Property Credit. The IRS moves the amounts for these two
credits into one field, Residential Energy Credits. Combining the two credits into one total on
paper tax returns impairs the IRS’ ability to accurately report the number of claims and the



24
     Electric Plug-In Vehicle and Alternative Motor Vehicle Credit Claims (Audit # 201040131).
                                                                                                 Page 18
                           Verifying Eligibility for Certain New Tax Benefits
                             Was a Challenge for the 2010 Filing Season




respective amounts paid for the Nonbusiness Energy Property Credit and the Residential Energy
Efficient Property Credit.
We plan to conduct a separate review to further assess IRS’ ability to identify and prevent
erroneous Residential Energy Property Credits.25

Recommendation
The Commissioner, Wage and Investment Division, should:
Recommendation 4: Ensure that the computer systems are programmed to identify
individual claims exceeding the maximum allowable Nonbusiness Energy credit amounts. This
should include programming to reject e-filed returns with this condition.
           Management’s Response: IRS management agreed with this recommendation. A
           Special Processing Code will be entered on paper tax returns to identify individual claims
           within the maximum allowable Nonbusiness Energy Credit amount. Because the
           Nonbusiness Energy Credit is included on a line with two other credits, the return will
           fall out to the Error Resolution System for review if the combined credits claimed exceed
           the allowable amount and the Special Processing Code is not present. The IRS will use
           math error authority to reduce any excessive Nonbusiness Energy Credit claimed to the
           maximum allowable amount.
           A Unified Work Request was submitted on August 4, 2010, for programming to reject
           e-filed returns where individual claims for the Nonbusiness Energy Credit exceeded the
           maximum allowable amount. Since the requested action will be subject to funding and
           resource prioritization by Modernization and Information Technology Services,
           submission of the Unified Work Request will complete the corrective action.

Individuals Received Excessive Qualified Motor Vehicle Tax
Deductions
As of May 28, 2010, we identified 2,933 individuals with more than $95.8 million in Qualified
Motor Vehicle Tax deductions on Form 1040, Itemized Deductions (Schedule A), that exceeded
the dollar amount which the IRS uses to identify a potentially erroneous claim. The Qualified
Motor Vehicle Tax deduction can be claimed on either Schedule A or Standard Deduction for
Certain Filers (Schedule L). The amount of the deduction is limited to the tax paid on the first
$49,500 of the purchase price of the qualified motor vehicle.
The IRS implemented controls to identify and freeze the refund for individuals claiming a
Qualified Motor Vehicle Tax deduction in excess of a specific dollar amount on a Schedule L.

25
     Residential Energy Credits (Audit # 201040109).
                                                                                             Page 19
                     Verifying Eligibility for Certain New Tax Benefits
                       Was a Challenge for the 2010 Filing Season




Once the freeze is applied, the tax return is sent to an examiner to determine if the claim is
legitimate. Similar controls, however, were not implemented to identify excessive Qualified
Motor Vehicle Tax deductions claimed on Schedule A.
We alerted IRS management on April 20, 2010, of this condition and recommended that the IRS
implement controls similar to those implemented for Schedule L to identify excessive Qualified
Motor Vehicle Tax deductions claimed on Schedule A. IRS management agreed with the
recommendation and will request a programming change to implement controls, similar to those
for Schedule L, to identify excessive Qualified Motor Vehicle Tax deductions claimed on
Schedule A for Tax Year 2009 tax returns, since the deduction expired on December 31, 2009.

Recommendation
If the Qualified Motor Vehicle Tax deduction is extended, the Commissioner, Wage and
Investment Division, should:
Recommendation 5: Ensure programming is implemented to identify and freeze refunds of
individuals claiming more than a specific dollar amount in Qualified Motor Vehicle Tax
deductions on Schedule A. This programming should mirror the programming already in place
for potentially excessive Qualified Motor Vehicle Tax deductions on Schedule L. In addition,
examiners should review the 2,933 individuals who TIGTA identified as claiming the Qualified
Motor Vehicle Tax deduction on Schedule A that exceeded a specific dollar amount to ensure
these individuals qualify for the deduction.
       Management’s Response: IRS management agreed with this recommendation.
       They submitted two Unified Work Requests on August 3, 2010, and August 11, 2010, to
       implement programming to identify and freeze refunds of individuals claiming over a
       specific dollar amount in Qualified Motor Vehicle Tax deductions on Schedule A,
       Itemized Deductions. Since the requested action will be subject to funding and resource
       prioritization by Modernization and Information Technology Services, submission of the
       Unified Work Request will complete the corrective action.
       The Director, Compliance, Wage and Investment Division, will coordinate with the
       Director, Campus Compliance, Small Business/Self Employment Division, to ensure
       these cases are reviewed. Cases warranting examination will be selected for audit.


.




                                                                                          Page 20
                         Verifying Eligibility for Certain New Tax Benefits
                           Was a Challenge for the 2010 Filing Season




                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate whether the IRS timely and accurately
processed individual paper and electronic tax returns during the 2010 Filing Season.1 To
accomplish our objective, we:
I.       Identified new tax legislation and administrative changes for the 2010 Filing Season that
         will have the greatest potential affect on individual taxpayers.
         A. Reviewed tax forms, instructions, and publications to determine whether they were
            accurately updated with the changes.
         B. Reviewed tax return processing procedures and change documentation to determine
            whether adequate controls were included to accurately process the new tax provisions
            during tax return processing.
II.      Determined whether the IRS correctly implemented new tax legislation and
         administrative changes that affected the processing of individual tax returns during the
         2010 Filing Season. We used computer analysis of 100 percent of the Tax Year 2009
         individual income tax returns processed nationally on the Individual Return Transaction
         File between January 1 and May 28, 2010,2 to identify returns affected by recent tax
         legislation and administrative changes and determined whether they were processed
         correctly. We electronically identified:
             1. 89,824,023 tax returns processed claiming the Making Work Pay and Government
                Retiree Credits (Schedule M) through May 28, 2010.
             2. 8,261,467 tax returns processed claiming $7,076,432,821 in refundable American
                Opportunity Tax Credits on Education Credits (Form 8863) through
                May 28, 2010.
             3. 4,079,167 tax returns processed with $8,427,765,863 in Additional Deductions for
                State Sales Tax and Excise Tax On the Purchase of Qualified Motor Vehicles on



1
 See Appendix VIII for a glossary of terms
2
 To assess the reliability of computer-processed data, programmers in the TIGTA Office of Information Services
validated the data that were extracted, and we verified the data with appropriate documentation. Judgmental
samples were selected and reviewed to ensure that the amounts presented were supported by external sources. As
appropriate, data in the selected data records were compared to the physical tax returns to verify that the amounts
were supported.
                                                                                                            Page 21
                    Verifying Eligibility for Certain New Tax Benefits
                      Was a Challenge for the 2010 Filing Season




              Itemized Deductions (Schedule A) and Standard Deduction for Certain Filers
              (Schedule L) through May 28, 2010.
          4. 16,874 e-filed tax returns processed with electric plug-in vehicle credits on
             Qualified Plug-in Electric and Electric Vehicle Credit (Form 8834), Alternative
             Motor Vehicle Credit (Form 8910), and Qualified Plug-in Electric Drive Motor
             Vehicle Credit (Form 8936) through May 28, 2010.
          5. 1,049,550 tax returns processed with a First-Time Homebuyer Credit and
             Repayment of the Credit (Form 5405) through May 28, 2010. In addition, we
             selected a judgmental sample of 122 tax returns from the Fresno, California;
             Kansas City, Missouri; and Austin, Texas, Submission Processing Sites to
             determine if they were accurately processed when they had supporting
             documentation or did not have supporting documentation. We used judgmental
             sampling to ensure that the original returns could be quickly obtained to evaluate
             the accuracy of processing.
III.   Determined whether the IRS monitoring systems indicated that individual returns were
       being processed accurately and in a timely manner.
       A. Monitored various Submission Processing site production reports, inventory reports,
          and return error inventories between January 15 and May 28, 2010, for key indicators
          of return processing and compared the statistics to those for the 2009 Filing Season.
       B. Monitored the IRS Program Completion Date reports from April 26 through
          May 17, 2010, to determine whether the Submission Processing sites processed all
          refund returns in a timely manner.
       C. Monitored Error Resolution System inventories (for delays or capacity problems).
       D. Monitored weekly 2010 Filing Season Wage and Investment Division Production
          meetings between January 21 and June 3, 2010, and monitored the IRS Submission
          Processing function web site to identify potentially significant issues.
IV.    Determined whether the IRS had corrected problems identified in the 2009 Filing
       Seasons. From returns processed by the Submission Processing sites between January 1
       and May 28, 2010, we electronically identified Tax Year 2009 returns that met specific
       criteria.
       A. Identified through May 28, 2010, 1,049,550 tax returns claiming the First-Time
          Homebuyer Credit on First-Time Homebuyer Credit and Repayment of the Credit
          (Form 5405). We electronically analyzed these returns to determine whether they
          were properly processed with respect to the previously identified problems.



                                                                                        Page 22
                     Verifying Eligibility for Certain New Tax Benefits
                       Was a Challenge for the 2010 Filing Season




IV.    Monitored issues of stakeholder interest.
       A. Determined whether taxpayers were using the new savings bond option for direct
          purchase of savings bonds with tax refunds.
       B. Determined whether taxpayers have significantly increased the use of the split refund
          option for depositing their refund.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the processes for planning, organizing,
directing, and controlling program operations for the 2010 Filing Season. We also evaluated the
controls that are incorporated directly into computer applications to help ensure the validity,
completeness, and accuracy of transactions and data during application processing of tax returns
for the 2010 Filing Season.




                                                                                         Page 23
                    Verifying Eligibility for Certain New Tax Benefits
                      Was a Challenge for the 2010 Filing Season




                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell Martin, Director
Tina Parmer, Audit Manager
John Hawkins, Senior Auditor
Bonnie Shanks, Senior Auditor
Steve Vandigriff, Senior Auditor
Jack Laney, Audit Evaluator
Kim McMenamin, Audit Evaluator
Robert Carpenter, Senior Information Technology Specialist
Arlene Feskanich, Senior Information Technology Specialist
Martha Stewart, Senior Information Technology Specialist
Michele Cove, Information Technology Specialist




                                                                                    Page 24
                    Verifying Eligibility for Certain New Tax Benefits
                      Was a Challenge for the 2010 Filing Season




                                                                            Appendix III

                          Report Distribution List

Commissioner C
Office of the Deputy Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Business Modernization Office, Wage and Investment Division SE:W:BMO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Director, Stakeholder Partnership, Education, and Communications, Wage and Investment
Division SE:W:CAR:SPEC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                     Page 25
                           Verifying Eligibility for Certain New Tax Benefits
                             Was a Challenge for the 2010 Filing Season




                                                                                   Appendix IV

                                       Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.
For all of the outcomes listed in this appendix, we conducted computer analyses of Tax
Year 2009 individual income tax returns.1 The returns were processed by the IRS Submission
Processing sites between January 1, 2010, and May 28, 2010, and were posted to the Individual
Master File. We developed specific criteria to identify returns affected by the new tax law
changes covered in this review. We used further computer analysis and auditor evaluation of
return data to determine if the IRS accurately processed individual tax returns during the
2010 Filing Season.

Type and Value of Outcome Measure:
•      Cost Savings (Funds Put to Better Use) – Potential; 6,554 individuals claiming $42.2 million
       in erroneous Homebuyer Credits (see page 12).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 6,554 individuals claiming $42.2 million in Homebuyer
Credits when their tax returns were processed. These individuals filed a tax return claiming the
Homebuyer Credit as a long-time resident with a purchase date prior to November 6, 2009.

Type and Value of Outcome Measure:
•      Cost Savings (Funds Put to Better Use) – Potential; 1,664 individuals claiming $12 million in
       erroneous Homebuyer Credits (see page 12).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 1,664 individuals claiming $12 million in Homebuyer
Credits when their tax returns were processed. These individuals filed a tax return claiming a
Homebuyer Credit for a home which had not yet been purchased, but reportedly would be in the
future.



1
    See Appendix VIII for a glossary of terms.
                                                                                            Page 26
                     Verifying Eligibility for Certain New Tax Benefits
                       Was a Challenge for the 2010 Filing Season




Type and Value of Outcome Measure:
•   Cost Savings (Funds Put to Better Use) – Potential; 38,446 individuals that erroneously
    received $15.2 million in Making Work Pay Credits (see page 15).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 38,446 individuals that erroneously received
$15.2 million in Making Work Pay Credits because they did not have a valid SSN.

Type and Value of Outcome Measure:
• Cost Savings (Funds Put to Better Use) – Potential; 71,219 individuals who erroneously
  received $14.5 million in excess Making Work Pay and Government Retiree Credits
  (see page 15).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 71,219 individuals who erroneously received
$14.5 million in excess Making Work Pay and Government Retiree Credits because the IRS
programming was not correctly computing the credit for individuals who indicated eligibility to
receive the $250 Government Retiree Credit and who also received a $250 Economic Recovery
Payment.

Type and Value of Outcome Measure:
• Revenue Protection – Potential; 171 individuals claiming $453,220 in erroneous nonbusiness
  energy property credits (see page 17).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 171 individuals claiming $453,220 in erroneous
nonbusiness energy property credits because an e-file reject code was not implemented to
prevent claims for more than the allowable maximum credit amounts of $1,500 for single filers
or $3,000 for married individuals filing jointly reporting more than one primary residence.




                                                                                         Page 27
                    Verifying Eligibility for Certain New Tax Benefits
                      Was a Challenge for the 2010 Filing Season




                                                                               Appendix V

                   List of Related
  Treasury Inspector General for Tax Administration
      Reviews Completed, Ongoing, or Planned

The Internal Revenue Service Faces Significant Challenges in Verifying Eligibility for the
First-Time Homebuyer Credit (Reference Number 2009-41-144, dated September 29, 2009)
Audit Objective: Determine whether the IRS has controls in place that effectively identify
erroneous claims for the First-Time Homebuyer Credit.

Additional Steps Are Needed to Prevent and Recover Erroneous Claims for the First-Time
Homebuyer Credit (Reference Number 2010-41-069, dated June 17, 2010)
Audit Objective: Determine whether the IRS has controls in place that effectively identify
erroneous claims for the First-Time Homebuyer Credit.

System Errors and Lower Than Expected Tax Return Volumes Affected the Implementation
of the Modernized e-File System for Individual Tax Return Processing (Reference
Number 2010-40-111, dated September 8, 2010)
Audit Objective: Determine whether e-filed individual income tax returns transmitted through
the MeF system are processed timely and accurately in a manner consistent with those tax
returns processed in the Legacy e-File system.

A Comprehensive Strategy Is Being Developed to Identify Individuals With First-Time
Homebuyer Credit Repayment Requirements (Reference Number 2010-41-086, dated
August 16, 2010)
Audit Objective: Determine whether the IRS has developed effective strategies to administer
the First-Time Homebuyer Credit, recapture the Credit from taxpayers when appropriate, and
prevent improper Credits.

Processing of Amended Returns Claiming the First-Time Homebuyer Credit
(Audit Number 201040140)
Audit Objective: To determine whether the IRS has controls in place to ensure claims for the
First-Time Homebuyer Credit claimed on amended income tax returns are appropriately
processed.

                                                                                       Page 28
                     Verifying Eligibility for Certain New Tax Benefits
                       Was a Challenge for the 2010 Filing Season




First-Time Homebuyer Credit (Erroneous Claims) Phase 3 (Audit Number 201040141)
Audit Objective: To determine whether the IRS has controls in place that effectively identify
erroneous claims for the First-Time Homebuyer Credit.

Electric Plug-In Vehicle and Alternative Motor Vehicle Credit Claims
(Audit Number 201040131)
Audit Objective: Assess the effectiveness of the IRS’ processes to identify and prevent
erroneous claims for the Electric Plug-In Vehicle Credit and Alternative Motor Vehicles.

Deductions Associated With the Purchase of Qualified Motor Vehicles
(Audit Number 201040108)
Audit Objective: Assess the effectiveness of the IRS’ process to identify erroneous Qualified
Motor Vehicle deductions.

Residential Energy Credits (Audit Number 201040109)
Audit Objective: Assess the effectiveness of the IRS’ process to identify erroneous Residential
Energy Credits.

Process to Ensure Repayment of the First-Time Homebuyer Credit (Audit Number 201040107)
Audit Objective: Assess the IRS’ efforts to ensure accurate and timely repayment of the
First-Time Homebuyer Credit.




                                                                                           Page 29
                    Verifying Eligibility for Certain New Tax Benefits
                      Was a Challenge for the 2010 Filing Season




                                                                             Appendix VI

                List of Tax Forms and Schedules
              Processed Through Modernized e-File

Form 1040 – U.S. Individual Income Tax Return
Schedule A – Itemized Deductions
Schedule B – Interest and Ordinary Dividends
Schedule C – Profit or Loss From Business
Schedule D – Capital Gains and Losses
Schedule E – Supplemental Income and Loss
Schedule EIC – Earned Income Credit
Schedule M – Making Work Pay and Government Retiree Credits
Schedule R – Credit for the Elderly or the Disabled
Schedule SE – Self-Employment Tax
Form 1099-R – Distributions From Pensions, Annuities, Retirement or Profit-Sharing Plans,
IRAs, Insurance Contracts, etc.
Form 2106 – Employee Business Expenses
Form 2210 – Underpayment of Estimated Tax by Individuals, Estates, and Trusts
Form 2441 – Child and Dependent Care Expenses
Form 4562 – Depreciation and Amortization (Including Information on Listed Property)
Form 4868 – Application for Automatic Extension of Time To File U.S. Individual Income Tax
Return
Form 8283 – Noncash Charitable Contributions
Form 8812 – Additional Child Tax Credit
Form 8829 – Expenses for Business Use of Your Home
Form 8863 – Education Credits (American Opportunity, Hope, and Lifetime Learning Credits)
Form 8880 – Credit for Qualified Retirement Savings Contributions

                                                                                       Page 30
                   Verifying Eligibility for Certain New Tax Benefits
                     Was a Challenge for the 2010 Filing Season




Form 8888 – Direct Deposit of Refund to More Than One Account
Form W-2 – Wage and Tax Statement




                                                                        Page 31
                                Verifying Eligibility for Certain New Tax Benefits
                                  Was a Challenge for the 2010 Filing Season




                                                                                                                      Appendix VII

                                List of Tax Products Reviewed

           Tax                                 Description                             Actions the IRS                             IRS
         Products                          of Exception Issue                          Agreed to Take                         Actions Taken
Draft Residential Energy        The information provided on Page 3 of the         Update the final version with the   The IRS updated the instructions
Credits (Form 5695)             General Instructions under “Joint Occupancy”      recommended changes.                on Page 5 to eliminate the conflict
                                conflicted with the instructions on Page 5 for                                        with the instructions on Page 3.
                                Line 6.
Instructions for Draft          The instructions for these two draft forms        Add text to Form 8910 to point      The Instructions for the final
Alternative Motor Vehicle       referred taxpayers to an Internal Revenue         out that alternative motor          Form 8910 and the instructions in
Credit (Form 8910) and          Code section for the definition of a qualified    vehicles must have four wheels      the Final Form 8936 were both
Draft Qualified Plug-in         plug-in vehicle rather than simply providing      and to review the other             updated to define a qualified
Electric Drive Motor Vehicle    the taxpayer with the definition of a qualified   requirements in the Internal        plug-in electric drive motor vehicle
Credit (Form 8936) including    plug-in electric drive motor vehicle as a         Revenue Code to ensure they         as a four-wheeled vehicle.
the instructions                four-wheeled vehicle.                             are adequately covered in the
                                                                                  instructions.
Draft Qualified Plug-in         These three draft forms did not include a         Place Cautions at the top of the    The Final Forms 8834, 8910, and
Electric and Electric Vehicle   calculation step or Caution on the front of the   2009 Forms 8834, 8910, and          8936 were not updated to include
Credit (Form 8834),             form that informed or prevented taxpayers         8936 similar to the Cautions        the Caution. The IRS stated the
Draft Alternative Motor         from claiming a double benefit for the same       used on Alcohol and Cellulosic      Caution would be added to these
Vehicle Credit (Form 8910),     vehicle on more than one of these forms.          Biofuels Credits (Form 6478)        Forms in 2010.
and                                                                               and Biodiesel and Renewable
                                                                                  Diesel Fuels Credits
Draft Qualified Plug-in                                                           (Form 8864).
Electric Drive Motor Vehicle
Credit (Form 8936) including
the instructions
Highlights of 2008 Tax          Under “2009 Changes” for “New plug-in             Review the tax products and         Publication 553 (June 2009
Changes (Publication 553)       electric drive motor vehicle credit” it states,   articles on IRS.gov that refer to   version) was updated on IRS.gov
(June 2009)                     “Has a gross vehicle weight rating of less than   the gross vehicle weight rating     to correct the inaccuracy.
                                14,000 pounds.” Less than 14,000 pounds is        to ensure they are corrected
                                correct for Tax Year 2010. For Tax                and changed as needed and
                                Year 2009, the gross vehicle weight rating        post a What’s Hot topic on
                                may be more than 26,000 pounds.                   IRS.gov.
Instructions for U.S.           In the brief section on the Refundable            Consider updating the 2010          The TIGTA will follow up on this
Individual Income Tax Return    Education Credit (the American Opportunity        versions of these two tax           issue during our tax product review
(Form 1040) and                 Tax Credit) filers are referred back to an        products because the 2009           for the 2011 Filing Season.
Instructions for U.S.           earlier section on the Education Credit where     versions had already gone to
Individual Income Tax Return    no information on this credit is provided. A      print.
(Form 1040A)                    reference to the Education Credits (American
                                Opportunity, Hope, and Lifetime Learning
                                Credits) (Form 8863) and instructions where
                                the American Opportunity Tax Credit is fully
                                addressed would be more helpful.




                                                                                                                                   Page 32
                             Verifying Eligibility for Certain New Tax Benefits
                               Was a Challenge for the 2010 Filing Season




          Tax                              Description                              Actions the IRS                       IRS
        Products                       of Exception Issue                           Agreed to Take                   Actions Taken
Instructions for Form 1040   These three tax products do not inform the        Consider updating the 2010     The TIGTA will follow up on this
and for Form 1040A and       taxpayer that an SSN is required to be eligible   versions of these three tax    issue during our tax product review
Making Work Pay and          to claim the Making Work Pay Credit and           products because the 2009      for the 2011 Filing Season.
Government Retiree Credits   Government Retiree Credit.                        versions had already gone to
(Schedule M)                                                                   print.




                                                                                                                           Page 33
                   Verifying Eligibility for Certain New Tax Benefits
                     Was a Challenge for the 2010 Filing Season




                                                                            Appendix VIII

                            Glossary of Terms

Adjusted Gross           Calculated after certain adjustments are made but before
Income                   standard or itemized deductions and personal exemptions are
                         subtracted.
Earned Income Tax        A refundable Federal tax credit for low-income working
Credit                   individuals and families.
Error Resolution         Responsible for correcting taxpayer and return preparer errors, as
System                   well as errors made during IRS processing of tax returns.
Filing Season            The period from January 1 through April 15 when most
                         individual income tax returns are filed.
Free File Program        A free Federal tax preparation and electronic filing program for
                         eligible taxpayers developed through a partnership between the
                         IRS and the Free File Alliance LLC. The Alliance is a group of
                         private-sector tax software companies.
Individual Master        The IRS database that maintains transactions or records of
File                     individual tax accounts.
Individual Return        Contains data transcribed from initial input of the original
Transaction File         individual tax returns during return processing.
Making Work Pay          A refundable tax credit of 6.2 percent of wages. The maximum
Credit                   credit is $400 for individuals and $800 for married couples.
Master File              The IRS database that stores various types of taxpayer account
                         information. This database includes individual, business, and
                         employee plans and exempt organizations data.
Modernized e-File        This system provides real-time processing of tax returns and
                         extensions that will improve error detection, standardize business
                         rules, and expedite acknowledgments. The system also allows
                         taxpayers to attach documents to their tax return.
Modified Adjusted        Calculated without regard to certain deductions or exclusions,
Gross Income             unlike Adjusted Gross Income.



                                                                                        Page 34
                  Verifying Eligibility for Certain New Tax Benefits
                    Was a Challenge for the 2010 Filing Season




Submission              The data processing arm of the IRS. The sites process paper and
Processing Site         electronic submissions, correct errors, and forward data to the
                        Computing Centers for analysis and posting to taxpayer
                        accounts.
Tax Year                The 12-month period for which tax is calculated. For most
                        individual taxpayers, the tax year is synonymous with the
                        calendar year.




                                                                                    Page 35
      Verifying Eligibility for Certain New Tax Benefits
        Was a Challenge for the 2010 Filing Season




                                                      Appendix IX

Management’s Response to the Draft Report




                                                           Page 36
Verifying Eligibility for Certain New Tax Benefits
  Was a Challenge for the 2010 Filing Season




                                                     Page 37
Verifying Eligibility for Certain New Tax Benefits
  Was a Challenge for the 2010 Filing Season




                                                     Page 38
Verifying Eligibility for Certain New Tax Benefits
  Was a Challenge for the 2010 Filing Season




                                                     Page 39
Verifying Eligibility for Certain New Tax Benefits
  Was a Challenge for the 2010 Filing Season




                                                     Page 40
Verifying Eligibility for Certain New Tax Benefits
  Was a Challenge for the 2010 Filing Season




                                                     Page 41
